                               Closeout for Case Number M99090049
     '
        This inquiry was conducted as result of two complaints filed with consumer
protection organizations. The complaints allege that individuals working for the
contractor performing the survey were intrusive in the manner in which calls to non-
responsive survey recipients were made. We worked with the NSF division responsible
for the management of this survey to answer the complaints by letter and began an
inquiry into their cause.

       We posed a series of questions regarding how complaints are handled in a memo
to the program office. The questions relate to the complaint rate during this survey
cycle and comparison to similar NSF surveys. We also asked for information about how
the contractor and NSF staff respond in these situations.

       The program office response to our memo indicates that the number of
complaints in this survey cycle is very small compared to other surveys. The methods
used by NSF and contractor personnel to handle complaints appear reasonable and
appropriate. Program officials advised us that they changed a procedure to ensure that
the NSF contact's name and phone number would be given to survey recipients who want
to complain. This step in the procedure allows complainants to contact NSF prior to
contacting a consumer organization.

         This inquiry is closed and no further action will be taken on this case.


cc: Integrity, IG




Page 1 of 1
